No. 20-1611

In the Supreme Court of the United States
HEALTHCARE DISTRIBUTION ALLIANCE,
ASSOCIATION FOR ACCESSIBLE MEDICINES,
and SPECGX LLC,
Petitioners,
v.
LETITIA JAMES and HOWARD A. ZUCKER,
in their respective official capacities as Attorney General and Commissioner of
Health of the State of New York,
Respondents.

CERTIFICATE OF SERVICE

I, Michael B. Kimberly, a member of the Bar of this Court, certify that on this
third day of August, 2021, I caused three copies of this reply brief for petitioner to be
served by overnight mail and one copy to be served by electronic means on the
following:
Caroline Anais Olsen
Steven Wu
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005
Caroline.Olsen@ag.ny.gov
Steven.Wu@ag.ny.gov
I further certify that all parties required to be served have been served.

_______________________
Michael B. Kimberly

